                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-01671-262




    Combined Assessment Program

            Review of the

    Sheridan VA Healthcare System

          Sheridan, Wyoming





August 9, 2013

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 ECC            Emergency Care Committee
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Sheridan VA Healthcare System
                 FY             fiscal year
                 HPC            hospice and palliative care
                 MEB            Medical Executive Board
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 SOP            standard operating procedure
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                               CAP Review of the Sheridan VA Healthcare System, Sheridan, WY



                                            Table of Contents

                                                                                                                           Page

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishment........................................................................................                  2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 5

  Medication Management – CS Inspections............................................................. 8

  Coordination of Care – HPC ................................................................................... 10

  Pressure Ulcer Prevention and Management ......................................................... 12

  Nurse Staffing ......................................................................................................... 14


Appendixes
  A. Facility Profile ....................................................................................................      15

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures......                                                16

  C. VISN Director Comments ..................................................................................                  17

  D. Facility Director Comments ...............................................................................                 18

  E. OIG Contact and Staff Acknowledgments .........................................................                            28

  F. Report Distribution .............................................................................................          29

  G. Endnotes ...........................................................................................................       30





VA OIG Office of Healthcare Inspections
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY



                                Executive Summary

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
May 6, 2013.

Review Results: The review covered six activities.          The facility’s reported
accomplishment was the achievement of an employee flu vaccination rate of 76 percent
compared to the national average of 48 percent.

Recommendations: We made recommendations in all six of the following activities:
Quality Management: Ensure Emergency Care Committee membership includes all
required disciplines. Review the quality of entries in the electronic health record (EHR).
Consistently scan results of non-VA purchased care into EHRs.

Environment of Care: Report results of compliance with reusable medical equipment
(RME) standard operating procedures to the RME Management Committee and the
Medical Executive Board.      Ensure that Sterile Processing Service employees
responsible for reprocessing activities receive initial RME training and annual
competency assessments. Require that manufacturers’ instructions are available for all
RME items and that RME is reprocessed at the specified temperature. Ensure Sterile
Processing Service sterile storage area temperature and humidity levels are
consistently monitored and maintained within acceptable levels.

Medication Management – Controlled Substances Inspections: Amend facility policy to
include the requirement that controlled substances (CS) inspectors receive annual
updates, and ensure inspectors receive those updates. Develop instructions for
inspections of automated dispensing machines.           Ensure that monthly findings
summaries are provided to the facility Director and that quarterly trend reports clearly
summarize discrepancies and problematic trends and identify potential areas for
improvement. Require that CS inspectors’ appointments state the end date of their term
and that CS inspectors’ terms do not exceed 3 years. Ensure monthly inspections of all
pharmacy and non-pharmacy areas with CS are conducted in accordance with Veterans
Health Administration requirements and include all required elements.

Coordination of Care – Hospice and Palliative Care: Include a dedicated administrative
support person on the Palliative Care Consult Team. Ensure all non-hospice and
palliative care (HPC) clinical staff who provide care to patients at the end of their lives
receive end-of-life training. Establish a process to track HPC consults that are not acted
upon within 7 days of the request. Consistently assess HPC inpatients’ pain whenever
vital signs are obtained, and document results in EHRs. Document HPC inpatients’
pain assessments in EHRs using approved note titles.




VA OIG Office of Healthcare Inspections                                                          i
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


Pressure Ulcer Prevention and Management: Include a certified wound care specialist
on the interprofessional pressure ulcer committee. Ensure acute care staff consistently
document pressure ulcer location and stage and perform and document all required
daily activities/inspections for patients with pressure ulcers. Require acute care staff to
provide and document recommended pressure ulcer interventions and to perform and
document skin inspections and risk scales at discharge. Ensure all patients discharged
with pressure ulcers have wound care follow-up plans and receive dressing supplies
prior to discharge. Provide and document pressure ulcer education for patients and/or
their caregivers. Establish staff pressure ulcer education requirements.

Nurse Staffing: Monitor the staffing methodology that was implemented in March 2013.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 17–27, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D.

                                                          Assistant Inspector General for

                                                              Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY



                              Objectives and Scope

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following six activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2011, FY 2012, and FY 2013 through
May 9, 2013, and was done in accordance with OIG SOPs for CAP reviews. We also
asked the facility to provide the status on the recommendations we made in our
previous CAP report (Combined Assessment Program Review of the Sheridan VA
Medical Center, Sheridan, Wyoming, Report No. 08-02418-202, August 25, 2009).

During this review, we presented crime awareness briefings for 175 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.



VA OIG Office of Healthcare Inspections                                                         1
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
208 responded. We shared summarized results with the facility Director.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment

Mobile Flu Cart
The facility achieved an employee vaccination rate of 76 percent compared to the
national average of 48 percent. This exceptional rate can be attributed in part to the
implementation of a mobile flu cart, which allows nurses access to administrative areas.
Employees in administrative areas may have less opportunity to go to a clinical area to
receive the shot.




VA OIG Office of Healthcare Inspections                                                         2
                                            CAP Review of the Sheridan VA Healthcare System, Sheridan, WY



                          Results and Recommendations

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                       Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 NA    Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
 X     The cardiopulmonary resuscitation review          Facility policy and 12 months of ECC meeting
       policy and processes complied with                minutes reviewed:
       requirements for reviews of episodes of care       ECC membership did not include all required
       where resuscitation was attempted.                  disciplines.
 X     There was an EHR quality review committee,        Twelve months of Clinical Informatics Medical
       and the review process complied with              Record Committee meeting minutes reviewed:
       selected requirements.                             There was no evidence that the quality of
                                                           entries in the EHR was reviewed.




VA OIG Office of Healthcare Inspections                                                                  3
                                            CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


 NC            Areas Reviewed (continued)                                  Findings
       The EHR copy and paste function was
       monitored.
 X     Appropriate quality control processes were in     Thirty EHRs of patients who had non-VA
       place for non-VA care documents, and the          purchased care reviewed:
       documents were scanned into EHRs.                  Eleven results (37 percent) were not scanned
                                                           into the EHRs.
 NA    Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1.    We recommended that ECC membership includes all required disciplines.

2. We recommended that processes be strengthened to ensure that the quality of entries in
the EHR is reviewed.

3. We recommended that processes be strengthened to ensure that the results of non-VA
purchased care are consistently scanned into EHRs.




VA OIG Office of Healthcare Inspections                                                                4
                                            CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected the homeless domiciliary, inpatient mental health, acute medicine, outpatient
primary care, SPS, and the CLC. Additionally, we reviewed relevant documents, conversed with
key employees and managers, and reviewed all SPS employee training and competency files.
The table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC           Areas Reviewed for General EOC                               Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
             Areas Reviewed for Hemodialysis
 NA    The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
 NA    Monthly biological water and dialysate testing
       were conducted and included required
       components, and identified problems were
       corrected.
 NA    Employees received training on bloodborne
       pathogens.




VA OIG Office of Healthcare Inspections                                                                5
                                             CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


 NC          Areas Reviewed for Hemodialysis                                 Findings
                          (continued)
 NA    Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 NA    Selected EOC/infection prevention/safety
       requirements were met.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
 X     The facility used an interdisciplinary approach    Five months of RME Management Committee
       to monitor compliance with established RME         minutes and 6 months of MEB minutes
       processes, and RME-related activities were         reviewed:
       reported to an executive-level committee.           Minutes did not include results of compliance
                                                             with RME SOPs.
 NA    The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
 X     Employees received required RME training            For two SPS employees, documentation of
       and competency assessment.                           initial RME training or annual competency
                                                            assessments was missing.
 NA    Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
 X     RME SOPs were consistent with                      RME SOPs, manufacturers’ instructions, and
       manufacturers’ instructions, procedures were       1 day of sterilization logs for 2 RME items
       located where reprocessing occurs, and             reviewed:
       sterilization was performed as required.            Manufacturers’ instructions were not available
                                                             for one RME item.
                                                           The sterilization temperature recorded on the
                                                             log exceeded manufacturer instructions for
                                                             one of the items reprocessed.
       Selected infection prevention/environmental
       safety requirements were met.
 X     Selected requirements for SPS                       Sterile storage area temperature and humidity
       decontamination and sterile storage areas            levels were not consistently monitored.
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

4. We recommended that processes be strengthened to ensure that results of compliance with
RME SOPs are reported to the RME Management Committee and the MEB.




VA OIG Office of Healthcare Inspections                                                                  6
                                          CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


5. We recommended that processes be strengthened to ensure that SPS employees
responsible for reprocessing activities receive initial RME training and annual competency
assessments.

6. We recommended that processes be strengthened to ensure that manufacturers’
instructions are available for all RME items, that RME is reprocessed at the specified
temperature, and that compliance be monitored.

7. We recommended that processes be strengthened to ensure that SPS sterile storage area
temperature and humidity levels are consistently monitored and maintained within acceptable
levels.




VA OIG Office of Healthcare Inspections                                                              7
                                            CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                        Findings
  X    Facility policy was consistent with VHA          Facility CS inspection policy reviewed:
       requirements.                                     Facility policy did not include the requirement
                                                          that CS inspectors receive annual updates
                                                          regarding problematic issues identified
                                                          through external survey findings and other
                                                          quality control measures. Consequently, CS
                                                          inspectors did not receive these annual
                                                          updates.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
 X     Instructions for inspecting automated             Instructions for inspecting automated
       dispensing machines were documented,               dispensing machines had not been
       included all required elements, and were           developed.
       followed.
 X     Monthly CS inspection findings summaries         Summary of CS inspection findings for past
       and quarterly trend reports were provided to     6 months and quarterly trend reports for past
       the facility Director.                           4 quarters reviewed:
                                                         One monthly findings summary was not
                                                           provided to the facility Director.
                                                         Quarterly trend reports did not clearly
                                                           summarize discrepancies and problematic
                                                           trends nor did they identify potential areas for
                                                           improvement.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
 X     CS inspectors were appointed in writing,         Appointments, certifications, and training
       completed required certification and training,   records reviewed:
       and were free from conflicts of interest.         Eight CS inspectors’ appointments did not
                                                           state the end date of their term nor that their
                                                           term was not to exceed 3 years.




VA OIG Office of Healthcare Inspections                                                                      8
                                           CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


 NC           Areas Reviewed (continued)                                    Findings
  X    Non-pharmacy areas with CS were inspected      Documentation of 10 CS areas inspected during
       in accordance with VHA requirements, and       the past 6 months reviewed:
       inspections included all required elements.     The January 2013 inspections were not
                                                         conducted in any of the 10 areas.
                                                       Sufficient documentation was not maintained
                                                         to validate that all required monthly inspection
                                                         components were completed.
 X     Pharmacy CS inspections were conducted in      Documentation of pharmacy CS inspections
       accordance with VHA requirements and           during the past 6 months reviewed:
       included all required elements.                 The January 2013 pharmacy inspection was
                                                         not conducted.
                                                       Sufficient documentation was not maintained
                                                         to validate that all required pharmacy monthly
                                                         inspection components were completed.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

8. We recommended that facility policy be amended to include the requirement that CS
inspectors receive annual updates regarding problematic issues identified through external
survey findings and other quality control measures and that processes be strengthened to
ensure that CS inspectors receive annual updates.

9. We recommended that the facility develop instructions for inspections of automated
dispensing machines and that processes be strengthened to ensure that monthly findings
summaries are provided to the facility Director and that quarterly trend reports clearly
summarize discrepancies and problematic trends and identify potential areas for improvement.

10. We recommended that processes be strengthened to ensure that CS inspectors’
appointments state the end date of their term and that CS inspectors’ terms do not exceed
3 years.

11. We recommended that processes be strengthened to ensure that monthly inspections of all
pharmacy and non-pharmacy areas with CS are conducted in accordance with VHA
requirements and include all required elements and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 9
                                             CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 10 employee training records (5 HPC staff records and 5 non-HPC staff
records), and we conversed with key employees. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                    Areas Reviewed                                         Findings
  X    A PCCT was in place and had the dedicated         List of staff assigned to the PCCT reviewed:
       staff required.                                    An administrative support person had not
                                                            been dedicated to the PCCT.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
 X     HPC staff and selected non-HPC staff had           There was no evidence that four non-HPC
       end-of-life training.                               staff had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
 X     The PCCT responded to consults within the          Four consults were not acted upon within
       required timeframe and tracked consults that        7 days of the request and had not been
       had not been acted upon.                            tracked.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
 X     HPC inpatients were assessed for pain with         Two EHRs did not contain documentation of
       the frequency required by local policy.             pain assessments being performed when vital
                                                           signs were obtained.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.


VA OIG Office of Healthcare Inspections                                                                 10
                                             CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


 NC            Areas Reviewed (continued)                                   Findings
  X    The facility complied with any additional        Local policy reviewed:
       elements required by local policy.                Pain assessments were documented in the
                                                          EHR in progress notes with various titles
                                                          rather than approved note titles.

Recommendations

12. We recommended that processes be strengthened to ensure that the PCCT includes a
dedicated administrative support person.

13. We recommended that processes be strengthened to ensure that all non-HPC clinical staff
who provide care to patients at the end of their lives receive end-of-life training.

14. We recommended that a process be established to track HPC consults that are not acted
upon within 7 days of the request.

15. We recommended that processes be strengthened to ensure that HPC inpatients’ pain is
consistently assessed whenever vital signs are obtained and results documented in EHRs and
that compliance be monitored.

16. We recommended that processes be strengthened to ensure that HPC inpatients’ pain
assessments are documented in EHRs using approved note titles and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                                11
                                            CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 10 EHRs of patients with community-acquired pressure
ulcers, and 4 employee training records. The table below shows the areas reviewed for this
topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                    Areas Reviewed                                      Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
 X     The facility had an interprofessional pressure    Committee membership did not include a
       ulcer committee, and the membership                certified wound care specialist.
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
 X     Skin inspections and risk scales were             Eight EHRs did not contain documentation
       performed upon transfer, change in condition,      that a skin inspection and risk scale were
       and discharge.                                     performed at discharge.
 X     Staff were generally consistent in                In four EHRs, staff did not consistently
       documenting location, stage, risk scale score,     document the location and stage.
       and date acquired.
 X     Required activities were performed for            Eight EHRs did not contain consistent
       patients determined to be at risk for pressure     documentation that staff performed daily skin
       ulcers and for patients with pressure ulcers.      inspections.
                                                         None of the EHRs contained daily risk scale
                                                          documentation.
                                                         Four EHRs did not contain daily monitoring
                                                          for a change in condition.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
 X     For patients at risk for and with pressure        Five EHRs did not contain consistent
       ulcers, interprofessional treatment plans were     documentation that the recommended
       developed, interventions were recommended,         interventions were provided.
       and EHR documentation reflected that
       interventions were provided.
 X     If the patient’s pressure ulcer was not healed    Five EHRs did not contain evidence of wound
       at discharge, a wound care follow-up plan was      care follow-up plans at discharge.
       documented, and the patient was provided          Five of the seven applicable EHRs did not
       appropriate dressing supplies.                     contain evidence that patients received
                                                          dressing supplies prior to discharge.




VA OIG Office of Healthcare Inspections                                                                12
                                            CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


 NC            Areas Reviewed (continued)                                    Findings
  X    The facility defined requirements for patient    Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and      education requirements reviewed:
       education on pressure ulcer prevention and        For three of the seven applicable patients,
       development was provided to those at risk for      EHRs did not contain evidence that education
       and with pressure ulcers and/or their              was provided.
       caregivers.
 X     The facility defined requirements for staff       The facility had not developed staff pressure
       pressure ulcer education, and acute care staff     ulcer education requirements.
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
 NA    The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

17. We recommended that the interprofessional pressure ulcer committee includes a certified
wound care specialist.

18. We recommended that processes be strengthened to ensure that acute care staff
consistently document pressure ulcer location and stage and perform and document all required
daily activities/inspections for patients with pressure ulcers and that compliance be monitored.

19. We recommended that processes be strengthened to ensure that acute care staff provide
and document recommended pressure ulcer interventions and that compliance be monitored.

20. We recommended that processes be strengthened to ensure that acute care staff perform
and document skin inspections and risk scales at discharge and that compliance be monitored.

21. We recommended that processes be strengthened to ensure that all patients discharged
with pressure ulcers have wound care follow-up plans and receive dressing supplies prior to
discharge and that compliance be monitored.

22. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients and/or their caregivers and that compliance
be monitored.

23. We recommended that the facility establish staff pressure ulcer education requirements and
that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                               13
                                            CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and mental health).6

We reviewed relevant documents and we conversed with key employees. The table below
shows the areas reviewed for this topic. The area marked as NC needed improvement. Any
items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                      Findings
  X    The facility completed the required steps to       Expert panels were not convened until
       develop a nurse staffing methodology by the         March 13, 2013.
       deadline.
 NA    The unit-based expert panels followed the
       required processes and included all required
       members.
 NA    The facility expert panel followed the required
       processes and included all required members.
 NA    Members of the expert panels completed the
       required training.
 NA    The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
 NA    The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

24. We recommended that nursing managers monitor the staffing methodology that was
implemented in March 2013.




VA OIG Office of Healthcare Inspections                                                               14
                                            CAP Review of the Sheridan VA Healthcare System, Sheridan, WY
                                                                                              Appendix A

    Facility Profile (Sheridan/666) FY 2013 through March 2013a
Type of Organization                                                            Secondary
Complexity Level                                                                3
Affiliated/Non-Affiliated                                                       Non-affiliated
Total Medical Care Budget in Millions                                           $85.4
Number (through April 2013) of:
    Unique Patients                                                            10,939
    Outpatient Visits                                                          71,439
    Unique Employeesb                                                          456
Type and Number of Operating Beds:
    Hospital                                                                   60
    CLC                                                                        40
    Mental Health                                                              85
Average Daily Census:
    Hospital                                                                   46
    CLC                                                                        31
    Mental Health                                                              76
Number of Community Based Outpatient Clinics                                    5
Location(s)/Station Number(s)                                                   Casper/666GB
                                                                                Riverton/666GC
                                                                                Powell/666GD
                                                                                Gillette/666GE
                                                                                Rock Springs/666GF
VISN Number                                                                     19




a
    All data is for FY 2013 through March 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                               15
                                            CAP Review of the Sheridan VA Healthcare System, Sheridan, WY
                                                                                              Appendix B

                             VHA Patient Satisfaction Survey

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                      Inpatient Scores                                 Outpatient Scores
                          FY 2012                                          FY 2012
                  Inpatient       Inpatient        Outpatient      Outpatient       Outpatient       Outpatient
                  Score           Score            Score           Score            Score            Score
                  Quarters 1–2    Quarters 3–4     Quarter 1       Quarter 2        Quarter 3        Quarter 4
    Facility      53.2            60.9             57.8            51.7             57.4             48.2
    VISN          62.0            64.3             51.5            53.0             51.6             52.5
    VHA           63.9            65.0             55.0            54.7             54.3             55.0



                         Hospital Outcome of Care Measures

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                   Mortality                                     Readmission
                 Heart Attack     Heart           Pneumonia       Heart Attack     Heart           Pneumonia
                                  Failure                                          Failure
    Facility     **               12.5            13.5            **               26.7            19.0
    U.S.
    National     15.5             11.6            12.0            19.7             24.7            18.5
     ** The number of cases is too small (fewer than 25) to reliably tell how well the facility is performing.




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                           16
                                        CAP Review of the Sheridan VA Healthcare System, Sheridan, WY
                                                                                          Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                      Memorandum


       Date:           June 28, 2013

       From:           Director, Rocky Mountain Network (10N19)

       Subject:        CAP Review of the Sheridan VA Healthcare System,
                       Sheridan, WY

       To:             Director, Seattle Office of Healthcare Inspections (54SE)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1.	 I have reviewed the OIG Combined Assessment Program Review of
           the Sheridan VA Healthcare System and concur with the responses as
           provided by the Medical Center Director.

       2.	 If you have any questions or would like to discuss this response,
           please contact me at 303-756-9279.


                (original signed by:)
           Ralph T. Gigliotti, FACHE




VA OIG Office of Healthcare Inspections                                                           17
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs	                                  Memorandum


       Date:           June 28, 2013


       From:           Director, Sheridan VA Healthcare System (666/00)


       Subject:        CAP Review of the Sheridan VA Healthcare System,

                       Sheridan, WY

       To:             Director, Rocky Mountain Network (10N19)

       1.	 After reviewing this report, I concur with the identified findings.

       2.	 The Sheridan VA Healthcare System has developed and implemented
           the following action plans with designated anticipated completion
           dates.

       3.	 If you have any questions or would like to discuss this response,
           please contact me at 307-675-3675.



           Debra L. Hirschman




VA OIG Office of Healthcare Inspections                                                        18
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that ECC membership includes all required
disciplines.

Concur

Target date for completion: June 26, 2013 (Completed)

Facility response:

The Emergency Care Committee (ECC) membership has been revised to include
representation from the following disciplines: Physician, Nursing, Respiratory Therapy,
Clinical Education, Pharmacy, SPS, Patient Safety, Quality Management, CBOC
designee, AFGE representative and Engineering (ad hoc). ECC minutes will reflect
attendance by multidisciplinary team members.

Recommendation 2. We recommended that processes be strengthened to ensure that
the quality of entries in the EHR is reviewed.

Concur

Target date for completion: August 30, 2013

Facility response:

The Clinical Informatics Medical Record Committee (CIMR) will assume responsibility
for ensuring that the quality of entries in the EHR is reviewed. Medical Record reviews
will occur through the following processes:

   a.	 Point of Care reviews will be done by each nursing unit: Medical, Inpatient
       Psychiatric, Special Needs Unit, Community Living Center, Mental Health
       Residential Rehabilitation Treatment Program, and Domiciliary Care for
       Homeless Veterans. Data will be aggregated and reported to CIMR quarterly.
   b.	 Inpatient and Outpatient retrospective medical record reviews will be completed
       by members of the CIMR committee or designees. Data will be aggregated and
       reported to CIMR quarterly.




VA OIG Office of Healthcare Inspections                                                        19
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


Recommendation 3. We recommended that processes be strengthened to ensure that
the results of non-VA purchased care are consistently scanned into EHRs.

Concur

Target date for completion: September 30, 2013

Facility response:

In conjunction with VISN 19’s Network Authorization Office, the Sheridan VA Healthcare
System has identified a strengthened process to ensure that unauthorized non-VA
purchased care results will be scanned into the electronic health record. Compliance
will be monitored quarterly and reported to the Clinical Informatics Medical Record
Committee. Any barriers to success will be identified and adjustments to the process
will be made.

Recommendation 4. We recommended that processes be strengthened to ensure that
results of compliance with RME SOPs are reported to the RME Management
Committee and the MEB.

Concur

Target date for completion: September 30, 2013

Facility response:

Standard operating procedures for Reusable Medical Equipment (RME) are in the
process of being updated and staff members who use and clean RME will be educated
on updates. Compliance with RME standard operating procedures will be reported at
every RME Management Committee meeting and quarterly to the Medical Executive
Board (MEB).

Recommendation 5. We recommended that processes be strengthened to ensure that
SPS employees responsible for reprocessing activities receive initial RME training and
annual competency assessments.

Concur

Target date for completion: June 26, 2013 (Completed)

Facility response:

Employees currently responsible for reprocessing activities received competency
assessments completed by June 26, 2013. Assessments will occur annually in March.
Compliance will be reported to the RME Management Committee.




VA OIG Office of Healthcare Inspections                                                        20
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


Recommendation 6. We recommended that processes be strengthened to ensure that
manufacturers’ instructions are available for all RME items, that RME is reprocessed at
the specified temperature, and that compliance be monitored.

Concur

Target date for completion: September 30, 2013

Facility response:

Use of the oneSOURCE electronic database is in place to provide immediate access to
manufacturers’ instructions for use documents.

Reprocessing of one item was found to fall outside the manufacturer’s recommendation.
The temperature was to be maintained between 273 and 275 degrees for ten minutes
during sterilization; however the autoclave temperature increased to 276.8 degrees for
one minute of the ten minute cycle. Due to the age of the current equipment, a new
sterilizer is being installed with the intent to increase accuracy and maintain
manufacturers’ reprocessing requirements.

Compliance with RME manufacturers’ instructions for use and RME reprocessing will be
reported at every RME Management Committee meeting and quarterly to the Medical
Executive Board.

Recommendation 7. We recommended that processes be strengthened to ensure that
SPS sterile storage area temperature and humidity levels are consistently monitored
and maintained within acceptable levels.

Concur

Target date for completion: September 30, 2013

Facility response:

The Checkpoint® monitoring system is used for continuous tracking of temperature and
humidity levels in the SPS sterile storage areas. History logs show that temperature
and humidity levels have been maintained according to standard, but they were not
being actively monitored. The Checkpoint® software will be installed on the SPS
Nurse’s computer and the Nurse Executive’s computer to ensure that temperatures and
humidity will be monitored on a continual basis. Monthly reports will show temperature
and humidity ranges. Reporting will occur at every RME Management Committee
meeting and quarterly to the Medical Executive Board.

Recommendation 8. We recommended that facility policy be amended to include the
requirement that CS inspectors receive annual updates regarding problematic issues




VA OIG Office of Healthcare Inspections                                                        21
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


identified through external survey findings and other quality control measures and that
processes be strengthened to ensure that CS inspectors receive annual updates.

Concur

Target date for completion: October 31, 2013

Facility response:

MCM 00-24 Inspection of Controlled Substances has been re-written to align it with
VHA Handbook 1108.02. This MCM will be released 6/28/13 to go through the approval
process and once final approval is received, it will be published. All inspectors have
completed the Controlled Substance Inspection (CSI) TMS training and have attended a
documented training session. The new MCM reflects the annual training requirement.
Additionally, the newly appointed Controlled Substance Coordinator (CSC) and the
alternate CSC have both taken the training.

The quarterly trending reports will be reviewed at the annual training with the meeting
minutes reflecting this review.

Recommendation 9. We recommended that the facility develop instructions for
inspections of automated dispensing machines and that processes be strengthened to
ensure that monthly findings summaries are provided to the facility Director and that
quarterly trend reports clearly summarize discrepancies and problematic trends and
identify potential areas for improvement.

Concur

Target date for completion: September 30, 2013

Facility response:

Pharmacy has developed screen shots of the proper operation of the McKesson which
have been distributed to all inspectors. An instruction binder is being created and will
be available to all inspectors for use during inspections. The newly appointed CSC has
created a process for tracking and submitting monthly summary memo and action
plans. The Director signs the memo and action plans, which are then returned to the
CSC to be kept in accordance with VHA Handbook 1108.02. Quarterly trending reports
have been developed and will be submitted to the facility Director, pharmacy and
inspectors.    Reports will include discrepancies, problematic trends, areas for
improvement, and identified actions.

Trending reports to include problematic issues identified through external survey and
local findings have been developed and will be submitted to the facility Director,
pharmacy, and inspectors on a quarterly basis. Monitoring will occur for 2 quarters to
ensure reports are being submitted and signed by the Director.




VA OIG Office of Healthcare Inspections                                                        22
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


Recommendation 10. We recommended that processes be strengthened to ensure
that CS inspectors’ appointments state the end date of their term and that CS
inspectors’ terms do not exceed 3 years.

Concur

Target date for completion: June 21, 2013 (Completed)

Facility response:

The new appointment letter has terminology regarding the three year term limit and also
the term end date. Appointment terms will be monitored by the CSC.

Recommendation 11. We recommended that processes be strengthened to ensure
that monthly inspections of all pharmacy and non-pharmacy areas with CS are
conducted in accordance with VHA requirements and include all required elements and
that compliance be monitored.

Concur

Target date for completion: July 30, 2013

Facility response:

The facility has added inspectors and developed a one year reoccurring inspection
calendar which is included in the appointment letter. The CSC has also developed a
notification process to ensure random inspections are completed timely each month.
The CSC will communicate with the inspecting team after the inspection to ensure the
inspection worksheet, the memo and all other pertinent paperwork is submitted and
ready to be sent to the Director for review and signature. The CSC and alternate CSC
are currently working to streamline the inspection worksheet and ensure all required
elements are included. The CSI process will be monitored for compliance indefinitely
and reported quarterly to the Quality Oversight Board.

Recommendation 12. We recommended that processes be strengthened to ensure
that the PCCT includes a dedicated administrative support person.

Concur

Target date for completion: May 18, 2013 (Completed)

Facility response:

Mapping was updated to reflect the dedicated administrative support person at
0.25 FTEE for the Hospice and Palliative Care Team.




VA OIG Office of Healthcare Inspections                                                        23
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


Recommendation 13. We recommended that processes be strengthened to ensure
that all non-HPC clinical staff who provide care to patients at the end of their lives
receive end-of-life training.

Concur

Target date for completion: August 30, 2013

Facility response:

Staff members who care for Veterans at end of life were assigned training in TMS called
"Dying Well" provided by Swank Healthcare. Training compliance will be monitored in
TMS until 100% completion is attained.

Recommendation 14. We recommended that a process be established to track HPC
consults that are not acted upon within 7 days of the request.

Concur

Target date for completion: June 17, 2013 (Completed)

Facility response:

The Access database created to track open consults and patients receiving hospice and
palliative care services was updated to aid the team with tracking open consults and the
ability to target those open greater than seven days. This is being maintained by the
administrative support for the Hospice and Palliative Care Team.

Recommendation 15. We recommended that processes be strengthened to ensure
that HPC inpatients’ pain is consistently assessed whenever vital signs are obtained
and results documented in EHRs and that compliance be monitored.

Concur

Target date for completion: October 31, 2013

Facility response:

In accordance with VHA Directive 2009-053, Pain Management, pain will continue to be
assessed as the “5th Vital Sign.” The acute care Medical Unit and the Community Living
Center (where the patients/residents receiving hospice and palliative care are located)
have implemented process changes to ensure pain is assessed whenever vital signs
are obtained for HPC patients. Documentation of pain assessment in conjunction with
vital signs for HPC patients will be monitored and reported monthly to the Nursing
Executive Board until 90% compliance has been maintained for three months.




VA OIG Office of Healthcare Inspections                                                        24
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


Recommendation 16. We recommended that processes be strengthened to ensure
that HPC inpatients’ pain assessments are documented in EHRs using approved note
titles and that compliance be monitored.

Concur

Target date for completion: October 31, 2013

Facility response:

Updates to MCM 11-23 Pain Management and the associated Nursing Standard of
Care are being completed to ensure clarity for staff regarding requirements for
consistent documentation of pain assessments. The preferred title to use will be the
pain evaluation note. Education of nursing staff will occur and monitoring of pain
assessment documentation for HPC patients will be reported monthly to the Nursing
Executive Board until 90% compliance has been maintained for three months.

Recommendation 17. We recommended that the interprofessional pressure ulcer
committee includes a certified wound care specialist.

Concur

Target date for completion: June 24, 2013 (Completed)

Facility response:

The Wound Committee chairperson, who is a Nurse Practitioner and actively manages
wounds, successfully completed the Certified Wound Specialist examination on
June 24, 2013.

Recommendation 18. We recommended that processes be strengthened to ensure
that acute care staff consistently document pressure ulcer location and stage and
perform and document all required daily activities/inspections for patients with pressure
ulcers and that compliance be monitored.

Concur

Target date for completion: October 31, 2013

Facility response:

MCM 11-37 Pressure Ulcers Management and Prevention Program will be revised to
align with VHA Handbook 1180.02 Prevention of Pressure Ulcers. A training video was
created to educate staff on skin inspection and assessment including documentation of
pressure ulcer location and stage, pressure ulcer risk scale, and additional
documentation requirements noted within the Handbook. Compliance will be monitored
through monthly documentation audits conducted by acute care nurse managers. Data




VA OIG Office of Healthcare Inspections                                                        25
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


will be reported to the Nursing Executive Board and to the Wound Team. Meeting
minutes will reflect this documentation for four consecutive months.

Recommendation 19. We recommended that processes be strengthened to ensure
that acute care staff provide and document recommended pressure ulcer interventions
and that compliance be monitored.

Concur

Target date for completion: October 31, 2013

Facility response:

Acute care staff will document recommended pressure ulcer interventions in the skin
assessment notes. Compliance will be monitored through monthly documentation
audits conducted by acute care nurse managers. Data will be reported to the Nursing
Executive Board and to the Wound Team.         Meeting minutes will reflect this
documentation for four consecutive months.

Recommendation 20. We recommended that processes be strengthened to ensure
that acute care staff perform and document skin inspections and risk scales at
discharge and that compliance be monitored.

Concur

Target date for completion: October 31, 2013

Facility response:

Staff education regarding the training video and revision of MCM 11-37 will include skin
inspection, assessment of risk scales, and documentation requirements. Acute care
nursing staff will document skin inspection and risk scales at discharge and nurse
managers will conduct monthly documentation audits to determine compliance. Data
will be reported to the Nursing Executive Board and to the Wound Team. Meeting
minutes will reflect this documentation for four consecutive months.

Recommendation 21. We recommended that processes be strengthened to ensure
that all patients discharged with pressure ulcers have wound care follow-up plans and
receive dressing supplies prior to discharge and that compliance be monitored.

Concur

Target date for completion: October 31, 2013

Facility response:

All patients discharged with pressure ulcers will have wound care follow-up plans and
take-home dressings supplies documented on the nursing discharge note. Compliance



VA OIG Office of Healthcare Inspections                                                        26
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY


will be monitored through monthly documentation audits conducted by nurse managers.
Meeting minutes will reflect this documentation for four consecutive months.

Recommendation 22. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients and/or
their caregivers and that compliance be monitored.

Concur

Target date for completion: October 31, 2013

Facility response:

The patient education template will be revised to include pressure ulcer education for
patients and/or caregivers. Acute care staff will be educated on template revision and
pressure ulcer education requirements for patients with pressure ulcers and/or their
caregivers. Compliance will be monitored through monthly documentation audits
conducted by acute care nurse managers.             Meeting minutes will reflect this
documentation for four consecutive months.

Recommendation 23. We recommended that the facility establish staff pressure ulcer
education requirements and that compliance be monitored.

Concur

Target date for completion: October 31, 2013

Facility response:

Annual pressure ulcer education requirements have been established for all nursing
staff and Wound Team members. Staff education compliance will be monitored by
nurse managers and the Wound Team chairperson until 90% completion has been
attained.

Recommendation 24. We recommended that nursing managers monitor the staffing
methodology that was implemented in March 2013.

Concur

Target date for completion: August 30, 2013

Facility response:

Unit-based Nursing Hours per Patient Day (NHPPD) are monitored daily by each Nurse
Manager. Monthly NHPPD reports containing analysis, trending, and action plans will
be provided to the Nursing Executive Board to include overall NHPPD, required and
actual; analysis and management of staffing plan; and documentation of adverse
events.



VA OIG Office of Healthcare Inspections                                                        27
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Sami O’Neill, MA, Team Leader
Contributors            Sarah Lutter, RN, JD
                        Karen Moore, RNC, MSHA
                        Noel Rees, MPA
                        Randy Rupp
                        Susan Tostenrude, MS
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        28
                                     CAP Review of the Sheridan VA Healthcare System, Sheridan, WY
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Rocky Mountain Network (10N19)
Director, Sheridan VA Healthcare System (666/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Barrasso, Michael B. Enzi
U.S. House of Representatives: Cynthia M. Lummis


This report is available at www.va.gov/oig/.




VA OIG Office of Healthcare Inspections                                                        29
                                         CAP Review of the Sheridan VA Healthcare System, Sheridan, WY
                                                                                           Appendix G

                                               Endnotes

1
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009.

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation

   Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Materiel Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010.
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       30
                                               CAP Review of the Sheridan VA Healthcare System, Sheridan, WY



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                  31
